CONTRACT PROCUREMENT REVIEW OF THE
    WESTERN DISTRIBUTION CENTER
        RELOCATION PROJECT
      FEDERAL SUPPLY SERVICE
  REPORT NUMBER A050005/F/9/V06001
          NOVEMBER 9, 2005
                     Field Audit Office, Pacific Rim Region (JA-9)
                       450 Golden Gate Avenue, Room 7-5262
                            San Francisco, CA 94102-3434

Date:               November 9, 2005

Reply to
Attn of:            Audit Manager, San Francisco Field Audit Office (JA-9)

Subject:            Contract Procurement Review of the
                    Western Distribution Center Relocation Project
                    Federal Supply Service
                    Report Number A050005/F/9/V06001

To:                 Barbara L. Shelton
                    Acting Commissioner
                    Federal Acquisition Service (FAS)


This report presents the results of the Office of Inspector General’s Contract
Procurement Review of the Western Distribution Center (WDC) Relocation Project,
Federal Supply Service.

The objective of the review was to determine whether FSS followed procurement
regulations and exercised sound business judgment in awarding and administering the
contract for the WDC project.

Your comments to our draft report were considered in preparing this final report and are
included in their entirety as Appendix A.

We thank you and your staff for the courtesies extended during our review. Please
contact me at (415) 522-2744 if you or members of your staff have any questions about
the report.




PERLA CORPUS
Audit Manager (JA-9)
San Francisco Field Audit Office
                 CONTRACT PROCUREMENT REVIEW OF THE
                     WESTERN DISTRIBUTION CENTER
                         RELOCATION PROJECT
                       FEDERAL SUPPLY SERVICE
                   REPORT NUMBER A050005/F/9/V06001


                          TABLE OF CONTENTS

                                                             Page

EXECUTIVE SUMMARY                                              1

INTRODUCTION                                                   4

    Background                                                 5

    Objective, Scope and Methodology                           6

RESULTS OF REVIEW                                              7

    Tompkins’ Competitive Advantage                            8

    Acquisition Process                                       12

    LogWorld Contract                                         15

    Conclusion                                                17

    Recommendations                                           17

    Management’s Comments and Inspector General’s Response    18

INTERNAL CONTROLS                                             19

APPENDICES

    Management Response to Draft Report                       A-1

    Report Distribution                                       B-1
                   CONTRACT PROCUREMENT REVIEW OF THE
                       WESTERN DISTRIBUTION CENTER
                           RELOCATION PROJECT
                         FEDERAL SUPPLY SERVICE
                     REPORT NUMBER A050005/F/9/V06001


                                EXECUTIVE SUMMARY

PURPOSE

The objective of the review was to determine whether Federal Supply Service (FSS)
followed procurement regulations and exercised sound business judgment in awarding
and administering the contract for the Western Distribution Center (WDC) project.

BACKGROUND

This is the third report addressing the WDC’s relocation to a renovated and upgraded
facility at an existing Defense Logistics Agency warehouse at Sharpe Depot, French
Camp, California. Our first report addressed the validity of the savings projected in a
feasibility study conducted prior to the modernization. The second report identified the
total costs related to the relocation and modernization of the WDC.

During 2003, FSS relocated most of the WDC operations from Rough and Ready
Island, Stockton, California, to a newer more technologically advanced facility located at
nearby Sharpe Depot. The decision to move was based on a 2002 Feasibility Study,
prepared by Tompkins Associates, Inc. (Tompkins) that specified a $20.6 million
investment in design, implementation, equipment and construction costs. The study
projected annual savings of approximately $9.7 million and a payback of 2.2 years for a
modern, more efficient distribution facility. FSS decided to proceed with the moderni-
zation and relocation and made efforts to solicit a contractor proposal. Tompkins was
the only bidder, and on July 2, 2002, was awarded the multiple award schedule task
order for the project in the amount of $14.4 million with the facility’s planned opening
date of March 31, 2003. The task order was primarily Firm-Fixed-Price, with a portion
related to computer systems technology integration priced as Time and Materials. The
project was procured by FSS using a task order applied to Tompkins’ LogWorld multiple
award schedule (MAS) contract. System testing was eventually completed and
accepted on May 28, 2004, over a year behind schedule, primarily due to equipment
and software system incompatibility issues.

As we stated in our previous report, we expect that the new distribution system should
prove to be a valuable data collection and on-line analysis tool for WDC and the Office
of Global Supply. However, the project costs and related expenses totaled $39 million,


                                            1
surpassing the original anticipated cost of $22.7 million1, by 72 percent. The $39 million
included costs that were not in the original estimate such as additional rent, labor, and
miscellaneous costs. In response to our report, WDC officials stated that some of the
labor costs could be attributable to distribution activity uniquely related to Iraq War
supply requirements. However, FSS did not provide quantifiable support.

RESULTS IN BRIEF

The procurement was inadequately competed and administered, contributing signifi-
cantly to the large cost overruns. FSS personnel did not fully comply with prescribed
procurement rules, regulations, and generally accepted practices, and as a result
management control weaknesses contributed to the procurement problems for the WDC
project.

Tompkins had a competitive advantage that was enhanced by actions taken by FSS
that resulted in no additional bidders, and no assurance of FSS receiving fair and
reasonable pricing or best value. The short timeline that was established for the project
compromised the proposal review process and Federal Acquisition Regulation (FAR)
compliance with regards to determination of price reasonableness and justification of
use of a Time and Materials contract. The use of the LogWorld service schedule for the
procurement was not the correct vehicle to procure a project containing a significant
amount of other direct costs of $6.8 million (or nearly 50 percent) of the original contract
award of $14.4 million. Further, FSS did not adequately document the price reason-
ableness determinations for these costs, providing little assurance of best value for the
government

RECOMMENDATIONS

We recommend that the Commissioner of FAS direct the Assistant Commissioners for
Global Supply and Commercial Acquisition to:

    1. Strengthen management controls over the acquisition process to promote
       competition and sound business practices;

    2. Heighten awareness among employees of the importance of proper procurement
       practices; and

    3. Enforce compliance with acquisition policies, regulations and procedures.




1
 Tompkins’ projected cost: $20.6 million; plus other planned costs (post-acceptance support and office
renovation): $2.1 million; total estimate: $22.7 million.

                                                   2
MANAGEMENT’S COMMENTS AND OFFICE OF INSPECTOR GENERAL’S RESPONSE

The Acting Commissioner, Federal Acquisition Service, acknowledged and generally
agreed with the recommendations. However, she noted that the Iraq War and
increased inventory levels impacted the cost of the project. In addition, she disagreed
that other direct costs should be limited on a service contract.

Although we recognize that the war had affected the relocation of the depot, it did not
have a significant effect. The primary cause of the delay was the implementation of the
warehouse management system, which was not related to the war effort. Finally, using
a service schedule for a project that includes significant amount of Other Direct Costs
(nearly 50 percent) raises the question whether the best price was received or if a better
price could have been obtained through competition.




                                            3
                   CONTRACT PROCUREMENT REVIEW OF THE
                       WESTERN DISTRIBUTION CENTER
                           RELOCATION PROJECT
                         FEDERAL SUPPLY SERVICE
                     REPORT NUMBER A050005/F/9/V06001


                                   INTRODUCTION


The San Francisco Field Audit Office conducted a review of the contract award and
administration related to the Relocation Project of the Western Distribution Center
(WDC) of the Office of Global Supply, Federal Supply Service (FSS). This report
addresses:

      Solicitation and award of the task order to Tompkins Associates, Inc. (Tompkins)
       by the Service Contracts Division of the Services Acquisition Center, Office of
       Commercial Acquisition, for the Office of Global Supply;

      Administration of Tompkins’ Logistics Worldwide (LogWorld) Multiple Award
       Schedule contract by the Acquisition Division of FSS’ Management Services
       Center in Auburn, Washington; and,

      Administration of the task order to complete the WDC Relocation Project by the
       Office of Global Supply.

This is the third review addressing WDC’s relocation to a renovated and upgraded
facility at an existing Defense Logistics Agency warehouse at Sharpe Depot, French
Camp, California. Our first report, titled Review of Depot Upgrades and Modernization
(Report No. A030139/F/9/V04001, dated November 19, 2003), addressed the validity of
the savings projected in a feasibility study conducted prior to the modernization. Our
second report, titled Review of the Western Distribution Center Relocation Project
(Report No. A040050/F/9/V04011, dated September 29, 2004) addressed the total
costs related to the relocation and modernization of the WDC.

FSS is considering similar modernizations for the Eastern Distribution Center (EDC),
currently located in Burlington, New Jersey.




                                           4
BACKGROUND

The Office of Global Supply manages the logistics program by which it receives, stores,
and distributes items to federal customers. Its two depots, the EDC in Burlington, New
Jersey; and the WDC in California, anchor distribution operations.

During 2003, FSS relocated most of the WDC operations from Rough and Ready
Island, Stockton, California, to a newer more technologically advanced facility located at
nearby Sharpe Depot. The decision to move was based on a 2002 Feasibility Study,
prepared by Tompkins, that specified a $20.6 million investment in design,
implementation, equipment and construction costs. The study claimed projected annual
savings of approximately $9.7 million and a payback of 2.2 years for a modern, more
efficient distribution facility. In 2003, we issued a report that addressed the validity of
the savings projected in the feasibility study.2

In the spring of 2002, FSS decided to implement the recommended system in
Tompkins’ study, and hired a private firm, Gartner Consulting, to prepare a Statement of
Work. The Statement of Work (SOW) required the contractor to provide a fully
functional distribution facility at Sharpe, with a total cost “Not to Exceed $17 Million.”
Two separate solicitations in the form of Request for Quotes (RFQ) were sent to        11
contractors during April and May 2002. The RFQ, which included Tompkins’ feasibility
study as an attachment, went to vendors selected from FSS’ Logistics Worldwide
(LogWorld) multiple award service schedule. Tompkins was the only bidder.

On July 2, 2002, FSS awarded Tompkins the task order for modernizing and relocating
the distribution center in the amount of $14.4 million with a planned opening date of
March 31, 2003. The task order was primarily Firm-Fixed-Price, with a portion related to
computer systems technology integration priced as Time and Materials. Over the next
23 months, the project progressed and grew in cost. Material Handling Equipment
(MHE) and software system incompatibility problems caused delays in the opening of
the new distribution center. The final relocation of personnel and equipment to the new
Sharpe facility was accomplished in January 2004. System testing was eventually
completed and accepted on May 28, 2004.




2
Review of Depot Upgrades and Modernization (Report No. A030139/F/9/V04001, issued
November 19, 2003)

                                               5
As we stated in our previous report3, we expect that the new distribution system should
prove to be a valuable data collection and on-line analysis tool for WDC and the Office
of Global Supply. However, the project costs and related expenses totaled $39 million,
surpassing the original anticipated cost of $22.7 million4, by 72 percent. The $39 million
included costs that were not included in the original estimate such as additional rent,
labor, and miscellaneous costs. In response to our report, WDC officials stated that
some of the labor costs could be attributable to distribution activity uniquely related to
Iraq War supply requirements. However, FSS did not provide quantifiable support.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the review was to determine: Did FSS follow procurement regulations
and exercise sound business judgment in awarding and administering the contract?

To accomplish the objective, we:

   Held discussions with GSA, FSS (WDC, headquarters, and regional offices) and
    contracting officials (Tompkins and other LogWorld vendors);

   Reviewed contract administration, including invoices to determine if billings were in
    accordance with contract terms and conditions;

   Analyzed contract documents, and correspondence that included LogWorld contract
    files;

   Performed equipment verification and observed distribution operations at the new
    distribution facility at Sharpe;

   Contacted contractors for information via telephone and other electronic means; and

   Reviewed laws, regulations, and applicable guidance.

Our review focused on contract documentation related to the WDC relocation from
November 2001 to October 2004.

The audit was conducted in accordance with generally accepted government auditing
standards.



3
 Review of the Western Distribution Center Relocation Project (Report No. A040050/F/9/V04011, issued
September 29, 2004)
4
 Tompkins’ projected cost: $20.6 million; plus other planned costs (post-acceptance support and office
renovation): $2.1 million; total estimate: $22.7 million.

                                                   6
                   CONTRACT PROCUREMENT REVIEW OF THE
                       WESTERN DISTRIBUTION CENTER
                           RELOCATION PROJECT
                         FEDERAL SUPPLY SERVICE
                     REPORT NUMBER A050005/F/9/V06001


                                RESULTS OF REVIEW

FSS personnel did not fully comply with prescribed procurement rules, regulations, and
generally accepted practices. The procurement was inadequately competed and
administered, contributing significantly to the large cost overruns. Therefore, manage-
ment control weaknesses contributed to the procurement problems for the WDC project.

Tompkins had an inherent competitive advantage, which was enhanced by actions
taken by FSS Services Acquisition Center and Global Supply, resulting in Tompkins’ bid
being the only one received. As a consequence, FSS was not assured of receiving fair
and reasonable pricing or best value.

The decision to establish a short timeline for completing the project adversely affected
the acquisition process. Specifically, there was an inadequate review of the contractor’s
proposal, and FSS did not fully comply with Federal Acquisition Regulations (FAR) with
regards to determination of price reasonableness and justification of use of a Time and
Materials contract.

LogWorld, the FSS service schedule contract used for the project, was not the correct
procurement vehicle because of the significant amount of Other Direct Costs (ODCs).
In order to procure the ODCs through the schedule, they were added to LogWorld as
support products. However, FSS did not adequately document price reasonableness
determinations for these products, thus providing little assurance of best value for the
government for over $8 million in ODCs.

These conditions were indicative of weaknesses in the management controls as they
related to this procurement. The total cost of the project was in excess of $39 million
with cost overruns of 72 percent. Although the total cost overruns cannot be directly
attributed to these weaknesses, effective controls could be expected to have
significantly lessened them.




                                           7
Tompkins’ Competitive Advantage

Despite FSS obtaining legal assurance that permitted Tompkins to bid on the project,
we noted two factors that enhanced Tompkins’ competitive advantage. First, the time
provided for responding to the SOW was insufficient to ensure adequate competition
from contractors who did not have prior knowledge on the specifics of the project.
Second, the solicitation gave the impression that Tompkins was the favored contractor.

The effect of these actions was an inherent competitive advantage for Tompkins, as
evidenced by the vendor as the sole bidder. Receiving only one offer, FSS was not
assured of adequate competition, fair and reasonable pricing, or as shown by the
significant cost overruns, best value for the Government.

Legality of Including Tompkins

FSS expressed concern about the legality of allowing Tompkins to submit a proposal for
this solicitation. Tompkins had an inherent advantage because it had performed the
initial feasibility study upon which FSS’ decision to relocate and modernize was based.
Having studied the depot and various alternatives for accomplishing the modernization
project, Tompkins had the opportunity to develop a working knowledge of the depot and
a sound understanding of the project requirements. In effect, Tompkins had 4 more
months to prepare for this procurement than its competitors.

FSS hired an independent consultant to prepare the SOW. Two weeks after the
feasibility study was released, FSS provided the consultant with a draft statement of
work dated March 21, 2002. The consultant was tasked to write the full SOW for the
RFQ, which was issued 15 days later.

GSA’s General Counsel was approached by FSS about the potential conflict of interest
concerning Tompkins. Generally, the FAR restricts contractors from providing systems
or services in cases where a contractor has assisted the government in defining its
requirements. That restriction is intended to: (1) avoid the possibility of bias in the
situation where a contractor would be in a position to favor its own capabilities; or
(2) avoid the possibility that the contractor, by virtue of its special knowledge of the
agency’s future requirements, would have an unfair advantage. However, there are
exceptions to the conflict of interest rules. Specifically, when more than one contractor
has been involved in preparing the work statement, the conflict is mitigated. As a result,
contractors who participated in writing the work statement would not be precluded from
competing for the work on this basis. Because an independent consultant had been
used to prepare the SOW, counsel concluded that Tompkins should not be prohibited
from participation in the competition.




                                            8
Solicitation Schedule

The deadlines and timeframes established for this solicitation were too restrictive. After
issuing its report on March 7, 2002, Tompkins informed FSS that the project could be
completed in 10 to 12 months. FSS’ establishment of March 31, 2003 was the
completion date as noted in the original statement of work. As a result, FSS set an
accelerated schedule for the award of this project that appears to have been too short to
ensure adequate competition. The calendar below shows the activity leading up to
issuing the RFQ on April 12, 2002.

                    Pre-Solicitation Activity Timeline (March/April 2002)
 Sun        Mon              Tue                Wed                Thurs               Fri          Sat
   3         4                5                   6                   7                 8            9
 March                                                           Tompkins’
                                                                Report issued



  10         11               12                  13                 14                15           16
                                            FSS Supply’s
                                             decision to
                                            proceed with
                                               project

  17         18               19                  20                 21                22           23
                                                                FSS’ Draft of    Tompkins’ MAS
                                                                   SOW             application
                                                                                  submitted to
                                                                                   LogWorld

  24         25               26                  27                 28                29           30




  31         1                2                   3                   4                 5            6
            April                         Pre-notification of                       Tompkins’
                                               RFQ to                               LogWorld
                                           Tompkins and                          contract awarded
                                             three other
                                               vendors
   7         8                9                   10                  11               12           13
                         FSS phone call    Information on       Legal opinion:    RFQ issued to
                        to GSA General     project sent to        Tompkins        Tompkins and
                            Counsel       General Counsel         allowed to       three other
                           requesting                              compete          LogWorld
                             opinion                                                 vendors


As depicted above, within 3 weeks of its decision to proceed with the project, FSS had
selected the vendors for the competition and notified them of the impending RFQ. The
notification letters informed the vendors that the RFQ would be issued within 7 business


                                                       9
days. On April 12th, the RFQ (which included the SOW and Tompkins’ feasibility study)
was issued to the four contractors.

In addition to the quick development and release of the RFQ, the time allowed for the
vendors to respond was very ambitious. The vendors had a total of 3 weeks from the
time the RFQ was issued until the proposals were due. During the 3 weeks, the
vendors (who, with the exception of Tompkins, did not have prior knowledge about the
project) were expected to become familiar with the requirements of a $20.6 million
project and provide meaningful price and technical proposals.

The calendar below shows the tight timeframe for the responses to the RFQ issued on
April 12, 2002.

                        Schedule Surrounding First RFQ Issuance
 Sun        Mon            Tue               Wed                 Thu           Fri          Sat
 April        1              2                 3                  4            5             6
 2002                                  Pre-RFQ notice
                                       sent to original 4
                                          (including
                                         Tompkins)
  7           8              9                10                  11           12           13
                                                                        RFQ #1 issued to
                                                                           original 4
                                                                           (including
                                                                          Tompkins)
  14         15             16                17                  18           19           20
                         Response         Walk-through      scheduled
                        required for                        at WDC
                          walk-thru

  21         22             23                24                  25           26           27
         Deadline for                                                   Scheduled FSS
          bidder’s to                                                    response to
            submit                                                         bidder’s
          questions                                                       questions
  28         29             30                1                   2             3            4
                                             May                        Price & technical
                                                                         proposals due




By April 30th, concerns regarding the value of additional competition arose when it
became apparent that only Tompkins was planning to submit a proposal. On May 3rd,
the date the proposals were due, FSS extended the deadline with the intent to issue
another RFQ. On May 8th, FSS issued a revised SOW that was provided to seven
additional potential bidders over the next several days. FSS continued the quick pace
on the second RFQ with a proposal deadline of May 29th as shown in the calendar

                                               10
below. Similarly, for the second solicitation, the established accelerated schedule was
noticeably short, resulting in no additional bidders.

                           Schedule Surrounding Second RFQ Issuance
 Sun         Mon                Tue          Wed           Thu               Fri           Sat
                                May           1             2                 3             4
                                2002                                  Original 4 bidders
                                                                          notified of
                                                                          extension


  5            6                  7           8             9                10            11
                                       RFQ #2 issued to                   Response
                                       4 more potential                  required for
                                           bidders                        Walk-thru


  12          13                 14           15           16                 17           18
        RFQ #2 issued to                                                 Deadline for
        3 more potential                                              bidder’s to submit
            bidders                                                       questions

                   Walk-    -through      scheduled         at       WDC
  19          20                 21           22           23                24            25




  26          27                 28           29           30                31
                                       Price & Technical
                                        proposals due




Several vendors noted that the established schedule for bidders to participate in the
solicitation was brief. Although only Tompkins submitted a proposal, several vendors
submitted declinations, citing the short time frame as a reason. The responses
included:

      “…we must decline this opportunity to bid. …after careful review,…determined
       that it could not meet your schedule allotted for walkthrough of the facilities to
       make a full assessment of this requirement.”

      “My firm is too small, and the time frame is too short for us to bid.”

      “Our current workload will not permit us to do justice to the effort.”

       “Due to firm fix price elements…and short lead time…does not (allow) for a
       proper cost analysis and pricing that would be required.”

                                                  11
The short timeframe unmistakably favored Tompkins, who had obtained much of the
necessary data while conducting the feasibility study.

SOW and Feasibility Study

The solicitation, although written by an independent consultant, also appeared to favor
Tompkins. The SOW included the feasibility study prepared by Tompkins as an
appendix. As we noted in our prior reviews, Tompkins’ feasibility study presented five
alternatives for modernizing the Sharpe facility, with the contractor recommending the
third alternative. A review of the parameters presented in the SOW in conjunction with
the Tompkins study leads to the conclusion that FSS favored Tompkins’ third
alternative. This conclusion is borne out by our discussions with other vendors to whom
FSS sent the solicitation. Two vendors indicated their decisions not to bid were based
in part on Tompkins being in the competition.            Further, the SOW issued on
April 12, 2002, to Tompkins and three other vendors, in discussing the feasibility study,
referred to Tompkins, by name, as “a well-known specialist in the field of warehousing,
distribution, and supply chain management.”

Conclusion

Although FSS ensured Tompkins could legally participate in the bid for the WDC
Relocation Project, specific actions taken by FSS enhanced the contractor’s already
advantageous bidder position in this solicitation. These actions included establishing an
abbreviated solicitation schedule that was insufficient to ensure participation from other
bidders, and issuing an SOW that appeared to favor Tompkins.

Acquisition Process

FSS’ establishment of a short timeframe for building a state of the art facility led to
deficiencies in the acquisition process. According to FSS officials, Tompkins assured
FSS that the project could be completed within a short timeframe, and senior
management had expressed concerns about the progress of the project. Because of
the unrealistic timeframe, FSS did not allow sufficient time to review the contractor’s
proposal and did not fully comply with the FAR. The project actually took 26 months to
complete rather than the 12 months projected by Tompkins, with costs significantly
higher. Although other factors may have contributed to the cost increase, we believe
allowing more time for the acquisition process and fully complying with FAR
requirements might have led to a more cost-effective and overall successful project.

FSS established a project completion deadline of March 31, 2003. That date was
responsive to senior management’s concerns about not acting quickly and missing an
opportunity for savings. According to FSS officials, Tompkins representatives had
assured them that the project could be completed in 10 to 12 months. They relied on


                                           12
this assertion because of the good working relationship developed with Tompkins during
the feasibility study. Further, as stated in the SOW, FSS management considered
Tompkins to be “a well-known specialist in the field of warehousing, distribution, and
supply chain management.”

GSA senior management, upon learning of the modernization project and its potential
savings, expressed concern that FSS was not acting quickly enough. In
November 2001, senior management visited the WDC and the proposed location at
Sharpe. At that time, the annual rent savings were expected to be approximately $3.3
million ($9,000 per day). At a February 2002 FSS management conference in
Maryland, the preliminary results of the feasibility study were discussed. An FSS official
estimated costs of $36,000 for each workday that the opening of the new facility was
delayed. Senior management raised concerns about the lack of progress and the
missed savings opportunity. Thus, relying on Tompkins’ assurances while addressing
management’s concerns, FSS established March 31, 2003 as the completion date.

A 12-month deadline was unrealistic for such a complex project. FSS accepted
Tompkins’ estimate that the project could be completed by March 31, 2003. This
estimated timeframe was unrealistically short for the complex issues that FSS faced in
making the proposed warehouse management system work with the existing
information technology (IT) system. The complexity of the project is evidenced by
previous efforts to introduce commercial IT systems at FSS Distribution Centers. We
were told that those efforts had been less successful than anticipated due to complex
compatibility problems. FSS did not provide sufficient time to allow for resolving
potential compatibility issues, as indicated by the project eventually taking 26 months,
primarily due to system implementation issues.

Inadequate Review of Contractor’s Proposal

FSS did not adequately review the contractor’s proposal prior to awarding the task
order. The task order was awarded only 34 days5 after receiving the proposal because
of the urgency to complete the project by the established deadline. Although it might be
reasonable to expect the review of a proposal for a less-complex undertaking to be
completed within 34 days or less, for a task as complex as the WDC Relocation Project
this period was insufficient. In its rush to award the task order, Global Supply did not
accomplish as thorough a review as the situation warranted. And as a result, FSS
faced numerous problems with the interfacing of the software system and unanticipated
requirements resulting in task order modifications totaling $11 million.




5
Tompkins’ technical proposal was submitted on May 29, 2002; task order was awarded on July 2, 2002.

                                                13
FAR Compliance

The rush to complete the project led to instances of not fully complying with the FAR.
Specifically, (1) FAR 8.405-2(d) – requiring determinations of price reasonableness, and
(2) FAR 16-601 – requiring a determination and findings statement to justify use of a
Time and Materials contract.

FAR 8.405-2(d) – Price Reasonableness. This section of the FAR requires that the
contracting officer make a determination that the appropriate level of effort/mix of labor
proposed and the total price are reasonable. However, FSS did not provide adequate
evidence or documentation that the level of effort/labor mix or the price was determined
to be reasonable for the cost items proposed in the original turnkey contract and for the
task order modifications. In addition, we noted no independent analysis (such as an
Independent Government Estimate), to provide an estimate of a fair and reasonable
price in advance of the solicitation. Although not required, such an analysis could have
provided valuable information on the resources required to successfully complete the
project. An analysis would also serve to document the determination of price reason-
ableness in compliance with this section of the FAR.

FAR 16-601 - Determination and Findings Statement. Although required by FAR, the
contracting officer did not include a Determination and Findings Statement for the Time
and Material (T&M) pricing portion of the contract. The systems implementation portion
of the project included $1.3 million in T&M pricing for adapting the commercial software
to interface with FSS’ existing inventory control system. Acquisition regulations require
written justification for use of T&M pricing. Because there is no incentive for a
contractor to increase operational efficiency or control costs, we believe that the
government is placed at risk when T&M contracts are used. According to FAR
requirements, a T&M contract may be used only after the contracting officer executes a
determination and findings that no other contract type is suitable.

Conclusion

Less than full compliance with FAR may have contributed to the delays and cost
overruns experienced on this project. System interface problems and subsequent
additions for equipment and services could have been resolved prior to contract award
had FSS conducted a more thorough review and testing of the contractor’s proposal.
With the additional 14 months to complete the project, FSS incurred costs that
significantly increased over the original estimates, leading us to question whether the
government received best value.




                                           14
LogWorld Contract

Based on the significant amount of Other Direct Costs (ODCs), many of which were
site-specific, the project should have been competed on the open market rather than
through the LogWorld schedule. Further, FSS did not adequately document price
reasonableness for the site-specific ODCs that were added as support products to the
schedule. As a result, there is little assurance that the government paid a reasonable
price for the ODCs.

Use of LogWorld

The LogWorld contract was not the correct procurement vehicle for the depot
modernization project. An FSS official stated that LogWorld was selected because
they felt that the contract best suited the needs of the project. The $14.4 million task
order award included $6.8 million (47 percent) of ODCs6 (e.g., material handling
equipment). However, LogWorld is a service contract. FSS should have provided for
open market competition.

The LogWorld schedule contract clearly was not intended to include a significant
amount of non-service items. The only non-service Special Item Number (SIN) on this
schedule is 874-506 (Support Products), defined as “ancillary products used in the
delivery of a service, including training manuals, CD-ROMs, overhead slides, etc.”
Given the nature of the support products and that LogWorld is a service contract, we
believe that other direct items should be incidental to providing a service and should not
be a major component of the procurement. Other direct items required for the
modernization project, including warehouse management system software, material
handling equipment, sprinkler systems, safety striping, warehouse inventory transfer
from Rough and Ready Island to Sharpe, etc., were added to Tompkins’ LogWorld
schedule contract through this SIN so that Global Supply could procure them under the
WDC Relocation Project task order. These items appear to be well beyond the
intended scope of this SIN. As a result, adding these items to this particular SIN was
inappropriate.




6
The ODCs included items in Tompkins’ original proposal and those issued as task order modifications.

                                                 15
The table below lists some of the items purchased as support products:

Description                               Amount         Explanation
Lift Trucks and Pallet Jacks          $     480,852      ODCs as listed in the proposal
Shelving & Storage                        1,287,917      ODCs as listed in the proposal
Pick Engines 7                            1,357,817      ODCs as listed in the proposal
Air Compressors                              31,125      ODCs per Task Order Modification
Scanners                                     92,495      ODCs per Task Order Modification
Radio Frequency System                      413,465      ODCs per Task Order Modification
Source: Contract Proposal and Task Order Modification

The above items clearly did not belong on the LogWorld service schedule. LogWorld
officials expressed disagreement with FSS’ decision to use LogWorld for the ODCs
indicating that the addition of the ODCs and the non-service items placed on the
schedule goes against the true purpose that LogWorld is a service contract. LogWorld
officials further stated that perceived pressure from FSS was a significant factor in
complying with the request to utilize LogWorld even though the non-service purchases
were not within the intended scope of the service schedule.

Documentation of Fair and Reasonable Pricing Determination

We found inadequate documentation of fair and reasonable pricing determinations for
support products that were added to Tompkins’ LogWorld contract. According to FAR
8.405-2(d), the contracting officer is required to make a determination that the
Government received fair and reasonable pricing, and provide documentation of that
determination. Responsibility for those determinations lies with the LogWorld contract-
ing officer.

The contacting officer informed us that most of the ODCs, which were added as support
products, were geared specifically toward the Sharpe warehouse project. Global
Supply reviewed and approved all the modifications before Tompkins submitted them to
LogWorld for addition to the schedule contract. The proposals submitted to LogWorld
included a price that Tompkins and Global Supply had determined to be mutually
acceptable. The items were added to the schedule contract at the predetermined price.
For all of the modifications, we found that the contracting officer had signed the
amendment indicating that a determination of fair and reasonable pricing had been
made. However, the documentation we were provided did not demonstrate that an
adequate analysis of price reasonableness had been performed. The contracting officer
provided product specifications sheets, vendor pricelists, handwritten notes, etc.
However, generally the documentation was not directly linked to any particular
modification.
7
  Pick Engines consist of shelving and adjoining conveyor belt, controls and equipment (e.g., printers,
lighting and fire sprinklers) configured to facilitate the selecting of items for filling customer orders.

                                                      16
Without supporting documentation, we are unable to conclude that adequate price
reasonableness determinations were made for the support products that were added to
the Tompkins’ LogWorld contract. This is especially disturbing because Global Supply
indicated its understanding that determining price reasonableness was the responsibility
of the LogWorld contracting officer. Under the task order, FSS purchased support
products of over $8.7 million. There is little assurance that the government paid a
reasonable price for the ODCs.

Conclusion

We identified improper procurement practices at various levels of the Western
Distribution Center Relocation Project that clearly indicated weaknesses in management
controls.

   •   The solicitation process provided a competitive advantage to the original project
       consultant.
   •   An unrealistic completion date resulted in an inadequate review of the
       contractor’s proposal and not fully complying with FAR requirements.
   •   Use of the LogWorld service contract for a task requiring a substantial amount of
       ODCs was inappropriate, and items were added to the contract as support
       products without adequate documentation of fair and reasonable pricing
       determination.

Reasonable assurance that the government received best value was not apparent
throughout this procurement, as the cost overruns and project delays indicated.

In order to remedy these problems for future projects, a comprehensive plan to improve
controls in the aforementioned areas of the procurement process must be developed.
FSS needs to ensure that all participants in the procurement process are aware of the
requirements, policies and procedures.

Recommendations

We recommend that the Acting Commissioner (FAS) direct the Assistant
Commissioners for Global Supply and Commercial Acquisition to:

   1. Strengthen management controls over the acquisition process to promote
      competition and sound business practices;

   2. Heighten awareness among employees of the importance of proper procurement
      practices; and

   3. Enforce compliance with acquisition policies, regulations and procedures.


                                          17
Management’s Comments

The Acting Commissioner, Federal Acquisition Service, acknowledged and generally
agreed with the recommendations. She noted, in particular, that organizational changes
and implementation of proposed actions over the acquisition process would ensure
associates comply with applicable procurement regulations and procedures in future
acquisitions.   Further, the Acting Commissioner provided additional information
regarding the significant cost overruns. However, she disagreed with our finding
concerning the propriety of obtaining products as ODCs. See Appendix A for a copy of
management’s comments.

Office of Inspector General’s Response

Concerning the significant cost overruns, the Acting Commissioner stated that military
supply requirements for the Iraq War and unanticipated inventory levels exceeding the
project design were among the key causes. In our previous review of the WDC
Relocation Project, FSS raised the issue that some of the additional labor costs could
be attributed to distribution activity uniquely related to the war supply requirements.
However, FSS was unable to provide quantifiable support and we do not believe that
these costs were significant. The labor costs were incurred over the entire 14-month
delay, and represented only 29 percent of the total overruns. Implementation of the
warehouse management system was the primary cause of the delay and represented
the largest portion of the overruns. Although FSS delayed the relocation to Sharpe
because of the war, it did not halt implementation of the warehouse management
system. Furthermore, the Sharpe depot was not ready for occupancy at the time that
FSS suspended the move.

As for the ODCs, management stated that the purchase of products as ODCs is an
acceptable business practice using a service contract. Advantages for using ODCs
included: (i) a reduction in time; (ii) a single contractor who performs the work; and
(iii) prices controlled through negotiations. We recognize that ODCs can be procured
under a service schedule; however, they should be ancillary to the project and not the
types of items that were included such as the pick engines and the radio frequency
system. Nor should they represent 48 percent of the original contract value. Although
the schedule program might have reduced the time it took to award the project, FSS
could have contracted with a single vendor to provide services and materials for the
entire project through open market competition. Further, the selection of vendors only
from the LogWorld schedule limited the pool of potential contractors that might have
been able to compete, thereby stifling competition and leaving open the question of the
government receiving best value. Similarly, regarding negotiation, although a
reasonable price can be negotiated, the fact the ODCs were not competed also calls to
question whether the best price was received or if a better price could have been
obtained through competition.


                                          18
INTERNAL CONTROLS

We performed a review of internal controls related to contract award and administration
of the WDC Relocation Project. Our results are identified in the body of this report.




                                          19
                                                            GSA Federal Supply Service


October 25, 2005

MEMORANDUM FOR EUGENE WASZILY
        ASSISTANT INSPECTOR GENERAL
        FOR AUDITING (JA)

FROM:        BARBARA L. SHELTON
             ACTING COMMISSIONER (FAS)

SUBJECT:     GSA Draft Report, “Review of Western Distribution Center
             Relocation Project, Federal Supply Service” (A050005)
             Dated August 25, 2005

The above referenced report is the third audit associated with the relocation of the FSS
Western Distribution Center (WDC) from Stockton, California, to French Camp,
California (Sharpe Depot). The review suggested: (a) FSS personnel did not fully
comply with prescribed procurement rules, regulations and generally accepted
practices: (b) the procurement was inadequately competed, and as a consequences,
FSS was not assured of receiving fair and reasonable pricing or best value for the
procurement; and (c) there were weaknesses in the management controls pertaining to
the procurement.

For ease of reference, we’ve addressed each of the report’s recommendations below
and describe the steps we plan to take to address the deficiencies identified in the
report. Before discussing the recommendations, however, we would like to offer
comments on two issues raised in the audit report.

First, while costs exceeded the original estimates for this project, the Sharpe Depot
implementation coincided with the build-up and support of combat operations for the
Iraq war and required an inventory level far exceeding original project design. Keeping
two depots in operation to meet the sustained surge in labor-intense war-related
workload and inventory levels exceeding original project design were amongst the key
reasons behind the significantly increased costs - - and not poor program management.

Second, we take issue on the section in the audit report that questions the propriety of
obtaining products under the category “Other Direct Costs” (ODC’s) in a service
contract. It is a commonly accepted business practice for service providers to offer
ancillary products used in the delivery of their services. This is one way service
providers reduce the time required to deliver market solutions to



                                           A-1
their customers. In addition to time savings, there are inherent advantages and
additional value provided when one contractor is responsible for the performance of a
large and complex, integrated system. To address concerns about costs, aggressive
negotiations can take place under task orders for ODC’s and reasonableness of pricing
can be determined prior to acquiring products through these arrangements.

OIG Recommendations and FAS Response:

1. Strengthen management controls over the acquisition process to promote
   competition and sound business practices

FAS concurs with this recommendation and has taken a variety of approaches to
strengthen management controls over the acquisition process.

   (1) Organizational Focus/Supportive Structure. FAS is implementing a greatly
       expanded Office of Acquisition Management (OAM) with contract integrity as a
       key focus. Acquisition Review and Improvement is an important component of
       the OAM organization.

   (2) Training. Acquisition activities are working on a continual basis to ensure
       contract specialists receive training on proper acquisition procedures and
       understand that compliance with acquisition policies is critical to GSA’s goal of
       “acquisition excellence”.

   (3) Evaluation. To gauge associate knowledge and the effectiveness of training, in
       March 2003, the Acquisition Quality Measurement and Improvement Program
       was established. As part of this program, contracts from each Acquisition
       Center are reviewed each quarter. Contracts are randomly selected, assessed
       for regulatory compliance against established guidelines, and scored as either
       “Excellent”, “Satisfactory”, “Acceptable with Conditions”, or “Unsatisfactory”.

   (4) Nationwide Performance Management. Acquisition Centers use the results from
       the quarterly contract quality reviews to improve associate training as well as to
       implement appropriate initiatives or corrective actions to improve performance.
       In addition, the scores from these reviews are compiled and used as the results
       for the annual Contract Quality performance measure. The Contract Quality
       reviews commenced in 2004 with the Special Order Program (SOP) and
       expanded in FY 2005 to include Schedule contract awards. In 2006, we plan to
       expand these reviews to include internal procurements of products and services
       for projects like the Sharpe Deport acquisition.

   (5) Individual Competency. In addition to the nationwide program measure, Contract
       Quality is also a factor in contract specialist performance


                                           A-2
      appraisals. Specifically, the factor requires each GS-1102 contract specialist to
      be evaluated as to whether contract actions are supported and in compliance
      with regulatory and internal guidelines and that documentation is complete and
      properly filed and formatted.

2. Heighten awareness among all FSS associates of the importance of proper
   procurement practices

FAS concurs with this recommendation and has already taken steps to heighten
associate awareness of the importance of proper procurement practices. For example:

   (1) “Get It Right” Plan. As part of this plan, associates are receiving training on the
       proper use of GSA contracting vehicles and services and Acquisition Centers are
       stressing compliance with federal acquisition policies, regulations and
       procedures.

   (2) Performance Management. To ensure associates recognize its importance to
       the FAS organization, Contract Quality is a nationwide incentivized program
       performance measure. As previously discussed, contracts are randomly
       selected and assessed for regularity compliance against established guidelines.
       The results of the reviews are used to monitor whether the organization is
       making improvements in contract quality.

   (3) Associate Performance Plan and Appraisal System (APPAS). Contract quality is
       a factor that is to be considered by supervisors during the GSA annual appraisal
       process for contracting specialists.

3. Enforce compliance with acquisition policies, regulations and procedures.

FAS concurs with this recommendation and is addressing compliance with acquisition
policies, regulations and procedures through:

   (1) Organizational Design. OAM reports directly to the FAS Commissioner with a
       dotted line reporting relationship to the Chief Acquisition Officer (CAO). The
       CAO provides input for the OAM Assistant Commissioner rating. OAM is aligned
       and integrated with the CAO, who provides policy and guidance, to ensure the
       consistent application of acquisition policy and guidelines across the new
       business portfolios and FAS as a whole.

   (2) Organizational Focus/Supporting Structure. FAS is implementing a greatly
       expanded OAM with contract integrity as a key focus. An important support unit
       in OAM is Acquisition Review and Improvement. This component ensures



                                           A-3
         contract quality and integrity through a coordinated review process and
         documents and shares best practices that are “looped back” into training.

      (3) Measures and Targets. To ensure compliance with acquisition policies,
          regulations and procedures, Contract Quality is a performance measure for the
          acquisition program as a whole and for individual contact specialists. Contract
          quality is a factor that is to be considered by supervisors during the GSA annual
          appraisal process for contracting specialists.

Conclusion

FAS believes the Sharpe Depot project resulted in an acceptable value outcome when
project complexity, cost, risk/security of the supply chain, and response to military
actions are taken into consideration.

Nonetheless, FAS concurs with the recommendations and acknowledges there is room
for improvement in the handling of acquisitions by our associates. We are confident
that the organizational changes and actions discussed above will enhance management
controls and ensure associates comply with all applicable regulations and procedures in
future acquisitions.

cc:      Joseph J. Brewster (JA-9)
         Peter Stamison (9A)
         John W. Boyan (9F)




                                             A-4
                     CONTRACT PROCUREMENT REVIEW OF THE
                       WESTERN DISTRIBUTION CENTER
                            RELOCATION PROJECT
                          FEDERAL SUPPLY SERVICE
                      REPORT NUMBER A050005/F/9/V06001


                                REPORT DISTRIBUTION

                                                                            COPIES

Acting Commissioner, Federal Acquisition Service (FAS)                         3

Assistant Commissioner, FSS, Office of Global Supply (FL)                      1

Acting Assistant Commissioner, FSS, Office of Commercial Acquisition (FC)      1

Director, Logistics Operations Center, FSS, Office of Global Supply (FLO)      1

Chief, Audit Follow-up and Evaluation Branch (BECA)                            1

Assistant Inspector General for Auditing (JA)                                  2

Assistant Inspector General for Investigations (JI)                            1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)               1

Director, Policy Plans & Operations Staff (JAO)                                1

Regional Inspector General for Audits (JA-3)                                   1

Regional Inspector General for Investigations (JI-W)                           1

Regional Inspector General for Investigations (JI-9)                           1

Regional Administrator, Mid-Atlantic Region (3A)                               1

Regional Administrator, Pacific Rim Region (9A)                                1

Regional Administrator, Northwest/Arctic Region (10A)                          1




                                           B-1
